NO. 19-511
IN THE

Supreme Court of the United States
FACEBOOK, INC.,

Petitioner,

v.

NOAH DUGUID, INDIVIDUALLY AND ON BEHALF OF HIMSELF AND ALL OTHERS SIMILARLY
SITUATED,

Respondent,

and
UNITED STATES OF AMERICA,

Respondent-Intervenor.
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

PROOF OF SERVICE

As required by Supreme Court Rule 29.5, I certify that the Brief for Amici

Curiae National Consumer Law Center, Consumer Federation of America, and
Consumer Reports in Support of Respondent Duguid was served via electronic mail
on all parties required:
Paul D. Clement
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue,
NW Washington, DC 20004
paul.clement@kirkland.com
Counsel for Petitioner

Sergei Lemberg
LEMBERG LAW, LLC
43 Danbury Road
Wilton, CT 06897
slemberg@lemberglaw.com
Counsel for Respondent Noah Duguid

Jeffrey B. Wall
Acting Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530
SupremeCtBriefs@USDOJ.gov
Counsel for United States
I declare under penalty of perjury that the foregoing is true and correct.

/s/

Tara Twomey

Tara Twomey
Counsel of Record
National Consumer Law Center
7 Winthrop Square
Boston, MA 02110
(617) 542-8010
TTwomey@me.com
Counsel for Amici Curiae
Dated: October 23, 2020

